<html>
<title> - ACCOUNTABILITY OVER POLITICS: SCRUTINIZING THE TRAFFICKING IN PERSONS REPORT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 ACCOUNTABILITY OVER POLITICS: SCRUTINIZING THE TRAFFICKING IN PERSONS 
                                 REPORT

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2016

                               __________

                           Serial No. 114-218

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               _________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
20-743PDF                       WASHINGTON : 2016                         
________________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more informati-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="593e2936193a2c2a2d313c3529773a363477">[email&#160;protected]</a>  
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Susan Coppedge, Ambassador-at-Large to Monitor and 
  Combat Trafficking in Persons, U.S. Department of State........     5
Mr. David Abramowitz, managing director, Humanity United Action..    27

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Susan Coppedge: Prepared statement.................     8
Mr. David Abramowitz: Prepared statement.........................    31

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
Mr. David Abramowitz: A report titled ``Assessing Government and 
  Business Responses to the Thai Seafood Crisis''................    48
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: A resolution adopted by the OSCE Parliamentary 
  Assembly on Law Enforcement Co-Ordination to Prevent Child 
  Sexual Exploitation and Trafficking by Known Sex Offenders.....    51
Written responses from the Honorable Susan Coppedge to questions 
  submitted for the record by the Honorable Christopher H. Smith.    54

 
                     ACCOUNTABILITY OVER POLITICS:
                    SCRUTINIZING THE TRAFFICKING IN
                             PERSONS REPORT

                              ----------                              


                         TUESDAY, JULY 12, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and welcome 
to everyone, especially Madam Ambassador. Thank you for being 
here.
    As you know, the Trafficking and Victims Protection Act of 
2000 launched a bold comprehensive public-private sector 
strategy that included sheltering, political asylum, and other 
protections for the victims, long jail sentences and asset 
confiscations for the traffickers, and a myriad of preventative 
initiatives and tough sanctions for governments that failed to 
meet minimum standards prescribed by the Trafficking Victims 
Protection Act.
    It was bipartisan and I know David Abramowitz is here, who 
worked very hard, as did others on both sides of the aisle. It 
was 3 years in the making. It was not passed overnight. It was 
given a great deal of looks by everyone, especially the 
administration, which initially opposed most of it, but in the 
end was signed into law by President Clinton.
    The bill also created the Trafficking in Persons Report and 
tier rankings and I, in all candor, while I like much of what's 
in the product and I've read through most of it now and I think 
it was a very effective effort on country after country--the 
number of countries that are on Tier 1 is a record, as you 
point out in your testimony, Madam Ambassador, I think that's a 
good thing, a number of countries, probably a record again have 
actually updated or passed laws that are more responsive 
particularly to victims. But there were concerns. I raise these 
because to me it's all about the victims and how do we prevent 
victimization and how do we assist those who are currently or 
in the future going to be victims.
    And I remain concerned that both last year's TIP Report and 
the current one gave passing grades to several nations with 
horrific records of government complicity in human trafficking.
    Falsifying a country's human rights record, particularly 
when it comes to branding what tier it ought to be not only 
undermines the credibility of the report but was especially 
dehumanizing to the victims who suffer rape, cruelty, and 
horrifying exploitation.
    There are several instances, and I'll get to those in a 
moment, where you read the report and it inevitably leads to 
this ought to be a Tier 3 country and then it doesn't merit 
that, for some reason.
    The passing grades for failing, done for more than a dozen 
governments, was exposed by a series of investigative reports 
last year by Reuters, which found that professionals at the 
State Department's TIP Office made one set of recommendations 
only to overruled at a higher level for political reasons.
    Today's hearing will look closely at the newly-released 
Trafficking in Person's Report which assesses and ranks 188 
countries each year on their records of prosecuting 
traffickers, protecting victims, and preventing human 
trafficking.
    Some of the rankings comport with the records of certain 
countries. Burma and Uzbekistan, for example, are designated 
Tier 3, as they should be.
    The other nations including trading partners Malaysia and 
China are given a free pass despite their horrific records of 
government complicity in human trafficking.
    Cuba, a dictatorship highly-favored by this administration, 
is again falsely touted with a passing grade. China was allowed 
to keep its Tier 2 Watch List rankings despite the fact that 
the reason for their upgrade 2 years ago was found to be a 
fraud.
    Alexandra Harney, Jason Szep, and Matt Spetalnick of 
Reuters authored an expose on China's politicized ranking, find 
that, and I quote them, ``Two years after China announced it 
was ending the `re-education through labor' system, 
extrajudicial networks of detention facilities featuring 
torture and forced labor thrive in its place.'' I would note 
parenthetically as chairman of the Congressional-Executive 
Commission on China we just held another--it's my 60th hearing 
on human rights issues in China and we focused exclusively on 
the systematic use of torture in China. It is growing, not 
diminishing, in its usage, exploiting so many people including 
people who are forced into labor.
    China has deceived the United States--had deceived it in 
2014--and when it became apparent last year we let them keep 
their ill-gotten upgrade in 2015 and again in 2016.
    I would hope that that would be revisited again at any time 
you deem it necessary to make a change; obviously you do have 
that capability to do so.
    Malaysia, whose ranking was upgraded to the Tier 2 Watch 
List last year on the flimsiest of justifications and fears--it 
would be disqualified from the TPP--was allowed to maintain its 
Tier 2 Watch List ranking despite the fact that Malaysia 
faltered in its anti-trafficking progress over the last year.
    In fact, Malaysia, a country with 4 million migrant 
workers, prosecuted fewer trafficking cases and convicted only 
seven traffickers last year. That's less than when it was a 
Tier 3 country.
    Meanwhile, women from Burma, Vietnam, Cambodia, the 
Philippines, and Nepal are trafficked to China for forced 
marriages and I read with special interest that what you write 
in the report about the Philippines and their efforts, maybe 
even Herculean efforts to try to mitigate trafficking there and 
that's recognized in their significant upgrading.
    North Korean laborers worked under conditions described by 
experts as forced or slave labor to earn income for the North 
Korean Government. Prisoners of conscience and other prisoners 
continue to be held in administrative detention facilities 
where there are numerous credible reports of prisoners being 
trafficked for the purpose of organ harvesting and on that 
score just a couple of weeks ago I chaired a hearing on organ 
harvesting and it was brutal to hear first person reports and 
human rights reports by NGOs about what is actually occurring 
there.
    The State Department must get the TIP Report right or we 
will lose the foundational tool created to help the more than 
20 million, maybe more, victims of trafficking and slavery 
around the world.
    The tier ranking is about protecting vulnerable lives--
lives destroyed or saved by the on-the-ground impact of a 
government's action or its inaction.
    The easiest case for Tier 3 ranking should be those where 
the government itself is profiting from human trafficking such 
as in Cuba, where thousands of Cuba medical professionals labor 
in dangerous countries not of their choosing, their passports 
taken, their movements restricted, their families and licenses 
threatened and their salaries heavily garnished by the Cuban 
Government.
    It is not a coincidence that Cuban law does not recognize 
labor trafficking. Maria Werlau testified at our hearing in 
March that, and I quote her, ``trafficking is a huge operation 
run by the government through numerous state enterprises, with 
. . . accomplices, participants, sponsors, and promoters all 
over the world.'' Cuba is also known as a known destination 
country for child sex tourists and Cuba reports no convictions 
for child sex tourism. Yet Cuba, although it had been 
previously year after year ranked Tier 3, is ranked Tier 2 
Watch List again this year.
    We have seen many countries take a Tier 3 ranking seriously 
and make real systemic changes and improve their tier rankings, 
but more importantly, protect trafficking victims. Countries 
such as South Korea and Israel come to mind.
    When the Bush administration rated South Korea and Israel 
Tier 3 based on their records, both countries--I met with 
Ambassadors several times from those countries--who wanted to 
get off as quickly as possible, and I would tell them and I 
wasn't the only one--the TIP office said it ad nauseam to 
them--it's all about performance. It's all about what you do, 
not what you say.
    Both countries enacted and implemented policies to combat 
human trafficking and were given earned upgrades for their 
verifiable actions.
    But other countries attempt to end run the accountability 
system with endless empty promises of action or mostly 
meaningless gestures of compliance. China sat on Tier 2 Watch 
List for 8 years, each year promising the State Department they 
would implement their anti-trafficking plan.
    Each year the State Department took the bait until Congress 
put a limit on the Tier 2 Watch List, 2 years only unless the 
President gives the country a waiver.
    Well, China has once again promised to implement a plan and 
the President just gave them a waiver to stay on the Watch List 
a 3rd year.
    Tier rankings are about real prosecutions that are 
verifiable. We know they happen. It's not just a list that is 
tendered by someone in the government to our Embassy or TIP 
official--real prevention and real protection for real people 
who are suffering as slaves.
    The TIP Report was meant to speak for the trafficking 
victims waiting, hoping and praying for relief. While the 2016 
TIP Report speaks for many of them, too many are still unheard.
    I yield to Mr. Cicilline.
    Mr. Cicilline. Thank you, Chairman Smith and Ranking Member 
Bass, for this important hearing and thank you to our witnesses 
for being here today.
    As the 2016 Trafficking in Persons report states, and I 
quote, ``Despite sustained anti-trafficking efforts, millions 
of individuals are bound by mental, physical and financial 
coercion and manipulation by traffickers who exploit their 
vulnerabilities for profit.''
    Human trafficking is modern day slavery. It's horrifying 
that there is no place in the world where children, women and 
men are safe from trafficking. Despite international and U.S. 
efforts to eliminate human trafficking, this centuries-old 
problem continues to occur in virtually every country in the 
world and contributes to a multi-billion dollar criminal 
industry, the second largest criminal enterprise in the world, 
according to the FBI.
    Trafficking is a global problem. Victims can start in one 
country and end up in another and trafficking is a human rights 
problem. Victims of human trafficking are deprived of 
individual freedoms and suffer through unimaginable harsh, 
coercive and heartbreaking conditions.
    I look forward to hearing from our witnesses today on how 
the United States can help prevent the scourge of human 
trafficking and we need an effort to end this horrific activity 
once and for all.
    Thank you for being here. With that, I yield back.
    Mr. Smith. Thank you very much, Mr. Cicilline.
    I'd like to now recognize and express my gratitude on 
behalf of the subcommittee to Ambassador Susan Coppedge for her 
leadership at the TIP office. She is our Ambassador-at-Large to 
Monitor and Combat Trafficking in Persons and senior advisor to 
the Secretary of State.
    She was confirmed by the Senate, having been appointed by 
President Obama in October 2015 and leads the U.S. global 
engagement against human trafficking. Ambassador Coppedge 
previously served for 15 years as Assistant United States 
Attorney in the Northern District of Georgia. She prosecuted 
more than 45 human traffickers in Federal cases involving 
transnational and domestic sex trafficking of adults and 
children and labor trafficking. These prosecutions brought 
perpetrators of these heinous crimes to justice and assisted 
more than 90 victims of human trafficking.
    Ambassador, the floor is yours.

STATEMENT OF THE HONORABLE SUSAN COPPEDGE, AMBASSADOR-AT-LARGE 
 TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, U.S. DEPARTMENT 
                            OF STATE

    Ambassador Coppedge. I am happy to be here today to discuss 
human trafficking in the 2016 Trafficking in Persons Report.
    Thank you for the opportunity to testify about his crucial 
human rights issue and critical foreign policy issue. The 
subcommittee and its chairman have been a consistent champion 
of global efforts to combat human trafficking.
    We very much appreciate Congress' bipartisan support on 
this issue and provision of resources so the department has 
both the foreign assistance funds and staff it needs to advance 
our shared goals of combating this heinous crime.
    Two weeks ago on June 30th, Secretary Kerry released the 
2016 Trafficking in Persons Report. The TIP Report demonstrates 
the U.S. Government's global leadership on combating human 
trafficking and it is our principal diagnostic tool to assess 
government efforts across what we call the three P's--
prosecuting traffickers, protecting and empowering victims, and 
preventing future trafficking crimes.
    The TIP Report reflects a whole of Department effort. It is 
the product of a year of research and reporting by my office, 
the Office to Monitor and Combat Trafficking in Persons, 
regional bureaus, and U.S. Embassies around the world, all 
informed by their engagements with foreign government 
officials, NGOs, faith groups, and international organizations.
    The report provides country-specific narratives for 188 
countries and territories and places them on one of four tiers 
representing the extent to which they meet the minimum 
standards for the elimination of trafficking as outlined in the 
Trafficking Victims Protection Act, or TVPA.
    The report also offers recommendations for improvement in 
every country. The TIP Report is more than just an analysis of 
what countries are doing to combat trafficking. It is, above 
all else, an instrument of diplomacy, a means to effect change 
and motivate tangible progress in combating the many forms of 
trafficking.
    And each year, the report and the Department's year round 
diplomatic efforts on trafficking do spur further progress. 
There are some places where we saw progress in the last year 
and other countries where we saw backsliding.
    There are some examples submitted in my written testimony. 
I will just highlight one and that is the progress in the 
Philippines that the chairman mentioned where a strong 
coordinated government effort to combat human trafficking 
across the three P's earned the government its first ever Tier 
1 ranking. The Philippines convicted 42 traffickers, including 
complicit government officials, fulfilling the top 
recommendation from the 2015 TIP Report.
    The Philippines is also an example of successful targeting 
of U.S. anti-trafficking foreign assistance. The Department has 
funded programs over the last 10 years including grants to 
experienced and committed anti-trafficking NGOs to help the 
government improve its efforts.
    This has led to the creation of a dedicated anti-
trafficking prosecution unit and an increase in the number of 
prosecutions and convictions. Unfortunately, there were several 
countries that did not make progress this year.
    For example, Sudan was ranked Tier 3 this year largely 
because the government continued to deny the existence of sex 
trafficking of adults and children and they did not report any 
efforts to address forced labor.
    Another example is Serbia, which went back to Tier 2 Watch 
List as there were fewer victims identified and still fewer 
human trafficking prosecutions.
    The Serbian Government did not afford victims sufficient 
protection or provide them with specialized services. We will 
continue our year round engagements with all governments to 
make clear that progress in combating human trafficking is a 
key priority of the U.S. Government, as well as a commitment of 
all governments that are a party to the Palermo Protocol.
    Globally, we saw some promising trends representing growing 
political will. Since last year, there were 30 amendments to 
anti-trafficking laws and three states became parties to the 
landmark Palermo Protocols: The Republic of Korea, Sri Lanka, 
and Singapore, bringing that total to 169 countries.
    While many governments reported increase in convictions, 
the reported figures still pale in comparison to the global 
scale of human trafficking. Further, in some countries, courts 
are not imposing sentences on traffickers that are sufficient 
to deter future criminal activity or reflective of the heinous 
nature of this crime.
    In addition to the narratives for each country, the 
introduction to this year's report focuses on effective 
strategies to prevent human trafficking.
    We witnessed a broad range of prevention efforts during the 
reporting period from strategic intervention programs to 
public/private partnerships that leverage expertise and 
facilitate creative solutions.
    Those positive examples are also included in my written 
testimony. We are extremely encouraged by these prevention 
efforts, yet much work remains. As the 2016 report indicates, 
two areas of particular concern include the need for stronger 
efforts to root out corrupt and complicit officials who are 
themselves either engaged in or benefiting from trafficking and 
the need for support services and protections for victims so 
that they are not penalized for crimes committed as a direct 
result of being trafficked.
    It is impossible to truly quantify the vast scope of modern 
slavery today. It is impossible to describe in words and tier 
rankings the full extent of the horror of human trafficking and 
what it inflicts on people and families and societies across 
the world.
    Despite this, I would like to close with a positive and 
personal reflection on the TIP Report. I have seen firsthand 
that it continues to serve as the gold standard for analyzing 
government efforts to combat human trafficking and as a 
catalyst for a more humane world.
    I am very proud of the hard work that went into the report 
this year and I look forward to using it to advance our ongoing 
diplomatic efforts to combat trafficking in the months ahead.
    I understand there are specific countries the subcommittee 
wants to discuss and I'm happy to answer questions on these or 
other countries.
    Thank you for having me.
    [The prepared statement of Ambassador Coppedge follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     
                              ----------                              

    Mr. Smith. Madam Ambassador, thank you so very much.
    Without objection, your full statement will be made a part 
of the record.
    And I would like to just begin by asking about China. You 
know, the tierage of China, obviously, has kept them off Tier 
3, which is where I and so many others who work on human rights 
in China believe they ought to be.
    And I've read very carefully the China narrative but it is 
deeply troubling that even where there is talk of the number of 
traffickers who have been convicted, there's language that 
follows that although it's unclear how many of these victims 
met the international definition of human trafficking, there's 
talk about the written plan which still defies implementation.
    I remember any time a Chinese official would come to the 
United States during the 1990s and into 2000 and beyond but for 
about 5 straight years there would always be an announcement 
before the Premier came here or President that they're looking 
at signing and then after they signed it, ratifying the 
International Covenant on Civil and Political Rights, and they 
got a groundswell of good will about the promise and then the 
Premier would leave, go back and nothing would happen.
    The written plan is still awaiting implementation as far as 
I can tell. Maybe you can provide better insight on that. On 
the Chinese sex trafficking of women, exacerbated in a huge way 
by the dearth of women and girls who have been killed through 
sex-selection abortion is we all know the numbers are tens of 
thousands of missing females as a part of that heinous crime of 
gender, and it is a crime, in my opinion.
    They're missing. They are not there and they're not going 
to be recovered, the balance or the ratio for generations to 
come, even if they turned on a dime tomorrow.
    And I'm wondering, when it comes to the magnet that China 
has become if there is an appreciation within the TIP office of 
how that has so exacerbated human trafficking, sex trafficking 
in particular and the exploitation of women.
    When I raised this during the Bush administration there was 
an effort to look at that and it was when Tier 3 was meted out 
to China by the Obama administration that was listed as one of 
the criteria.
    That has not abated. I was just in China. I gave a human 
rights speech over there. I talk to diaspora and especially 
human rights leaders in the Chinese community all the time. 
There has been no diminution of sex trafficking. It is only 
getting worse. It's a worsening, not a lessening situation. So 
if you could speak to that as well.
    And finally, on the reform through labor which was a 
decided reason for the upgrade 3 years ago, the information 
that we have clearly contradicts that while they got rid of 
what they called reform through labor, and I was in one of 
those Beijing Prison Number One where 40 Tiananmen Square 
activists were doing labor and exporting the shoes and socks 
that they were making and that was back in the early 1990s.
    But we know from the Chinese deputy director of Ministry of 
Justice who said in November 2014 that most of the reformed 
labor facilities were converted into costly drug detoxification 
centers, which is a euphemism, and that those individuals had 
increased by 29 percent and that these are reform through labor 
camps with a different name, a different shingle outside 
suggesting what they do inside.
    How do you respond to that, all of those questions?
    Ambassador Coppedge. Thank you, Mr. Chairman. Let me know 
if I forget to respond to one of those points.
    I want to start by telling you how much we appreciate your 
dedication to anti-trafficking efforts and all human rights 
efforts in China. It's very important to have that support on 
the Hill and we appreciate the work you have done in that area.
    I will say that China received, as you noted, a Tier 2 
Watch List ranking this year. That means it does not fully meet 
the minimum standards for the elimination of trafficking and 
that it did not demonstrate overall increasing efforts compared 
to the previous reporting period. So that is not a passing 
grade.
    If you look at the tier rankings as a pass/fail system, 
then China is still failing. It is on a Tier 2 Watch List, and 
we continue to urge them to take steps in many of the areas 
that your question highlighted.
    We did receive this year numbers for the conviction of sex 
trafficking and they reported that 714 traffickers were 
convicted. They then also submitted that number that you 
mentioned that is a little murkier. It's a little harder to 
figure out whether that next figure is about trafficking 
because it's a crime that's called abduction of women and 
children.
    And so it is counted in the report under the laws that 
China used. There may be some sex trafficking prosecutions in 
there. There may not. But as you know, the report says a 
country has to report data to us and if the data isn't clear we 
include that lack of clarity in the report when we provide the 
numbers.
    So there was an increased reporting this year and there 
were 714 trafficking cases as well as other convictions that we 
could not discern clearly what they were.
    With respect to the forced labor camps, we continued to get 
reports, as you yourself have, that some of those facilities 
have been rebranded and may still be used to cause forced 
labor.
    We hunt down all the leads we get and we include those in 
the Trafficking in Persons Report. We are having great 
difficulty quantifying the extent of forced labor that occurs 
in these centers. But we certainly get reports beyond just from 
the government. The government provides reports but we also 
talk to NGOs and citizens and people who have left the country.
    And individuals like yourself--when you travel I know that 
you share the information you gain with us and all of that goes 
into the report ranking for any country.
    Mr. Smith. On the sex trafficking, if you could speak to 
the missing girls phenomena and how that might be impacting 
this magnet that China has become.
    And again, on the reform through labor, do our personnel in 
our Embassies or consulates have access to independently verify 
any of this?
    And even on the 714 traffickers presumably that were 
convicted, is that a piece of paper they convey to us or do we 
have a capability to independently verify that this is true?
    Because it is the land of deceit by government officials. 
There's no doubt about it.
    Ambassador Coppedge. It's challenging sometimes when 
governments present information including China to understand 
what happens behind those statistics and in some countries that 
are smaller with fewer prosecutions I know we are able to look 
behind the number and see what the trafficking cases were 
composed of. In this case, our clearest ability to look behind 
the numbers is the different laws that China self-reported it 
used to prosecute these individuals.
    We do have officers at our Embassy in China and at our 
consulates looking at and looking for information there. So we 
do try to verify information as best we can. We use independent 
reports, human rights reports as well, so we do, to the best of 
our ability, look behind those numbers and try to verify them.
    With respect to the missing girls, that touches on an area 
of fighting trafficking where demand has been created because 
there's a problem and this happens in other countries too where 
there appears to be heightened demand for commercial sex and 
that does lead to an increase in sex trafficking.
    And what we have asked countries to do pursuant to the 
Trafficking Victims Protection Act minimum standards is to 
report to us what efforts they are doing to prevent the demand 
for young girls and adult women who might be engaged in 
commercial sex acts against their will.
    Mr. Smith. Finally, on China, the report notes that China 
is granted a waiver from otherwise required downgrade to Tier 3 
because its government had devoted sufficient resources to a 
sufficient written plan that, and I quote, ``if implemented 
would constitute making significant efforts to meet.''
    So, again, it's the promise of implementing a plan that has 
not been implemented. They've allocated $8 million in a country 
the size and girth of the People's Republic of China with a 
problem that is beyond words big. That doesn't seem like much 
money for a country of that size.
    But you even acknowledge that if implemented and it's like 
we've gotten that promise before and with great respect I would 
hope that we would not just take that at face value that 
they're doing us.
    Ambassador Coppedge. As you know, Congressman, there's only 
the ability to remain on the Tier 2 Watch List for 4 years and 
those last 2 years we do require the national action plan. I 
believe this is China's first waiver and so they only have 1 
more year where the national action plan would keep them on the 
Tier 2 Watch List. After that, they would have to move up to 
Tier 2 on their own efforts or down to Tier 3. So that period 
of time where they can rely on the national action plan is a 2-
year period.
    Mr. Smith. Let me just ask you, Madam Ambassador, in your 
testimony for the Senate this morning you said there were a 
handful of cases where J/TIP recommendations on rankings were 
opposed by other offices of the State Department. Was China, 
Cuba, or Malaysia--and Malaysia three of those countries and 
what was the recommendation of the TIP office and who made 
decisions to counter that?
    Ambassador Coppedge. Well, with respect to the 
recommendations my team at the Trafficking in Persons office 
works with individuals at Embassies and posts that are 
stationed abroad.
    We also work with the regional officials at the State 
Department and come up with the consensus recommendations we 
present to the Secretary.
    He approves all of those consensus recommendations or has 
the final approval on all of those. With respect to a handful 
of countries, there may have been some facts that were missing 
that we were striving to reach still from countries seeking 
more information.
    There was debate on factors potentially pointing in 
separate directions. So those were the internal deliberations 
and I was able to present arguments to the Secretary on any of 
those countries and ultimately the final decision was made by 
the Secretary for any that there was not a consensus 
recommendation.
    Mr. Smith. Again, on the written plan is that the 2013 
plan, if that's when it was originally written?
    Ambassador Coppedge. It is the 2013 plan. You're correct.
    Mr. Smith. So we're still awaiting its implementation?
    Ambassador Coppedge. We are. It was a 2013 to 2020 national 
plan of action against trafficking in persons.
    Mr. Smith. Okay. Let me, very briefly, and then I will 
yield to my distinguished colleagues, on the issue of Malaysia 
and, you know, David Abramowitz, who served under Sam 
Gejdenson, Tom Lantos was always involved with crafting the 
best possible bipartisan effort on human trafficking.
    In his testimony today he talks about the report. It is not 
without its troubling flaws when we start with Malaysia, he 
says, and he makes--and not only is it unjustified that 
Malaysia is not on Tier 3 which all of us, I think, are deeply 
concerned about.
    But he makes a point that upgrading Thailand to Tier 2 
Watch List was also unwarranted but points to the perils that 
the Malaysia upgrade created. In other words, because Malaysia 
was to be given a free pass a country like Thailand that had 
more convictions--35 last year, for example--that was upgraded 
artificially to make it look as if there's a sense of balance.
    That's a terrible outcome. Who made that decision? Was it a 
TIP recommendation for the Watch List or was that someone 
else's?
    Ambassador Coppedge. The final decisions are made by the 
Secretary and he spoke at the TIP Report release saying that 
the conclusions are based on facts and based on analysis that 
occurs over the course of the year.
    He also acknowledged that he worked with the experts in 
this area. I will say that we don't compare countries to one 
another. We compare a country to its efforts the previous year.
    So Malaysia's efforts were compared to its efforts the 
previous year and Thailand to its efforts the previous year. 
They weren't compared to each other.
    Mr. Smith. And on Cuba, Cuba was Tier 3 from the very 
beginning until last year. I read the narrative and I said how 
is that not a Tier 3 country, particularly when they claim 
labor trafficking doesn't exist?
    I can't even get a visa to go to Cuba. I met with the 
Ambassador and he said only if I agree to pre-set parameters of 
who I meet with would I be given a visa, because I would go and 
investigate human trafficking and talk to people in the country 
as well as dissidents.
    I can't even get in the country and I've been trying for 20 
years. I don't know how Cuba escaped the Tier 3 rating.
    Ambassador Coppedge. As you know, it is on the Tier 2 Watch 
List for the second year, meaning it did not make increased 
efforts to combat trafficking.
    I did travel to Cuba in January and met with individuals at 
the Ministry of Health to talk about our concerns with respect 
to the medical missions and people participating in those 
missions who don't have their travel documents or personal 
identification documents with them when they travel.
    So we continue to press the Cuban Government on indicators 
of trafficking that may exist. We also press them to reform 
their law to address all forms of trafficking. So, certainly, 
the problems that Cuba has are highlighted in the report and 
they do have a lot of areas with which they need to improve. 
They have improved with respect to sex trafficking prosecutions 
and to their coordination with law enforcement, both U.S. law 
enforcement and law enforcement in the region that they are 
working with to prevent sexual predators from coming into Cuba 
for sex tourism, but also to share information about any who do 
come in to engage in those prosecutions with other countries.
    Mr. Smith. So if we notice then, pursuant to the 
International Megan's Law, we are confident they will respond 
that a convicted pedophile from the U.S. will be watched or 
perhaps denied a visa?
    Ambassador Coppedge. I believe denied a visa, Congressman. 
We spoke with them about cases where they had turned away those 
who had been convicted in the U.S. of predatory sexual 
practices.
    Mr. Smith. You make a great point about human trafficking, 
the TIP heroes, including a group or a person fighting with 
trafficking, combating hereditary slavery in Mauritania.
    For the record--and I'm glad to see that, I think that's a 
great award for that person to get--but on March 13, 1996, I 
chaired a hearing called ``Slavery in Mauritania and Sudan'' 
and the State Department told me and my subcommittee, Mr. 
Twaddell, who was then the Deputy Assistant Secretary for 
African Affairs, that the Human Rights Report for 1995 
indicates that such practices as coercive slavery and commerce 
in slaves appeared to have virtually disappeared.
    I was told that this was a hearing in search of a problem, 
that there was no problem there. Matter of fact, one of our 
colleagues, former colleagues, who was a paid consultant for 
the country of Mauritania, actually testified and said there's 
no slavery and he had seen it. I asked him well, how often do 
you go there. Twice, every year. Mervyn Dymally had said that. 
No slavery.
    This is why I get concerned about reports that suggest it's 
not as big of a problem or, I mean, we had this and tried to do 
something back in 1996 and sitting in that witness chair just 
like you I was told go fish. There is no problem in Mauritania, 
and there is and there continues to be.
    Ambassador Coppedge. You won't be told that by me today. I 
can tell you that they are Tier 3 and we were very pleased to 
honor those individuals working in Mauritania against heredity 
slavery as well as seven other individuals.
    And it was very moving to me when they said that this makes 
a difference in their fights, in their countries against 
trafficking because they can go back and say it is a problem, 
it's a documented problem in this report and I have been 
honored for my work in it and my own Government should do 
better about it rather than relying on me to do this work and 
being honored by a foreign government.
    Mr. Smith. Well, thank you for honoring them and for your 
commitment there. I would like to yield to Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair.
    I actually wanted to follow up little bit on Cuba because 
I've actually had a different experience. I traveled to Cuba 
many times and saw them grappling with the issue especially of 
sex trafficking and prostitution and saw them do a lot of 
education.
    I also recall a time an individual from California was 
deported. He was in Cuba trying to do sex tourism and they 
caught him and deported him. And I actually thought that they 
were downgraded because of our relationship with Cuba at the 
time and when our relationship became more balanced we upgraded 
them.
    I have some concern about the medical missions and actually 
some concern about our behavior because one of the practices 
that we had when doctors from Cuba would go over to South 
America we would try to recruit them away and offer them 
special status here and I'm hoping that that's something that 
we're not continuing to do. Do you know what I'm talking about?
    Ambassador Coppedge. I do, and the Cuban officials did 
discuss that with me while I was down there. I don't think our 
policy yet has changed on that.
    Ms. Bass. Because some of those folks then, instead of 
going back to Cuba where they could practice medicine would be 
recruited away, and we've done that in other countries as well 
and that concerns me where doctors are needed other places. 
Surely we need them here too.
    So the focus of my question is actually I wanted to focus 
on the United States because when I read the TIP Report and I 
wanted to ask actually that you make some changes next year in 
how the reporting on the United States has done because when I 
read the section on the U.S. it's mixed in, domestic and 
international and even the domestic is mixed in with 
international people who might be trafficked.
    I'm concerned about domestic sex trafficking that does not 
have an international connection where the average age of girls 
in our country that are involved in sex trafficking is 12 years 
old.
    Many of them are foster kids. But from the way this report 
reads you can't really pull that out. And so if the tier 
grading is based on our practice from one year to the next, I 
don't know how you judge us. And then, of course, this is us 
grading ourselves, correct? I mean, there's nobody else looking 
at us to say oh, the United States had done wonderful in the 
Tier 1.
    So we have passed legislation around sex trafficking and I 
would very much like to know where we are with that. So, for 
example, in this report on page 391 it talks about how we 
provide comprehensive services for all victims of trafficking. 
Services, however, were not provided equally.
    I sure would like to know where those comprehensive 
services are. I don't know where they exist. One of the big 
problems that we have with sex trafficking in the United States 
is when we rescue the girls we have no place for them to go.
    So if there's comprehensive services that are provided by 
the United States one of the main things we need is housing and 
I don't know where we are providing that.
    Some of the people who are involved in the trafficking are 
street gangs in the United States. There is no reference to 
that unless I missed it. So I think we have graded ourselves 
very well and I'm not entirely sure we have done all that well.
    Victims are still arrested. That is acknowledged in one 
passing sentence here. The victims are still arrested. 
Sometimes when they are committing crimes that the pimp is 
forcing them to commit, the girls, the 12-year-olds, 13-year-
olds, 14-year-olds, are still taken to jail.
    There was a case recently in Oakland where a girl was 
rescued by a police officer who then turned around and started 
trafficking her and was trafficking her to the other police 
officers. So you might have seen in Oakland a couple of weeks 
ago I think they fired three chiefs in a week and in part it 
was because of this.
    You make reference to a national action plan. Do we have a 
national action plan in the United States that deals with U.S. 
girls and boys?
    Ambassador Coppedge. Are you ready for me to start? Okay. I 
really do appreciate your focus on the U.S. and it's only since 
2010 that we started reporting on the U.S. and that's actually 
helped us diplomatically to say that we look at ourselves as 
well as other countries.
    And we do--as you note, the U.S. narrative is longer than 
any other narrative. We exhaustively look at our efforts. We 
pull information from various branches of Federal Government.
    We don't evaluate what the states are doing. We look at the 
Federal effort and that is done thoroughly in the TIP Report.
    I think it's important that we look at ourselves and that 
we look at ourselves and what we are doing to prosecute and 
convict complicit officials so those police officers you just 
mentioned in Oakland, they shouldn't just be fired. They should 
be criminally prosecuted for that.
    Ms. Bass. Absolutely.
    Ambassador Coppedge. And that is something we ask other 
countries to do and we certainly grade ourselves on those same 
standards.
    Similarly, with respect to the penalization or 
criminalization of victims, I had the opportunity to speak to 
the gathering of state attorney generals that was here in DC.
    It was a wonderful opportunity to speak to 50 lawmakers 
about this very issue, about trafficking victims and how they 
need to not be criminalized by the system that is supposed to 
help them and many states have made great progress in that 
area.
    New York was one of the first to offer expungement of 
criminal records for crimes committed as a direct result of 
trafficking. Florida has gone even further and doesn't look at 
just prostitution crimes but looks at any crimes that a 
trafficking victim may have been convicted of as a result of 
trafficking.
    So it's very important that we make our cases victim-
centered, that we make sure that we are helping and assisting 
the victims and you were right that housing is one of the key 
issues that victims need.
    I was a former Federal prosecutor in Atlanta and that was 
the first thing we needed to do when we found victims was get 
them somewhere safe so they weren't retrafficked, so they 
weren't subject to the trafficker finding them and pulling them 
back into that criminal activity that they did not want to be 
in.
    So housing is certainly an area we look at as well as other 
services--medical services, education, job training--and all of 
these are provided by Federal as well as state agencies and 
NGOs.
    There's a lot of government funding going to NGOs to 
provide these services in our states and the Department of 
Health and Human Services can better speak to exactly what is 
being done and we do pull a lot of our data for the report from 
HHS, from the Department of Justice, and from the Department of 
Labor.
    Ms. Bass. So my state is California and my city and county 
is Los Angeles and in Los Angeles we certainly passed 
legislation there that a girl is not ever considered as a 
prostitute because if you're under the age of consent how can 
you be a prostitute? It's actually rape.
    And where I think more attention needs to be paid is also 
on the men because the men are called johns. They should be 
called child molesters and they should be prosecuted like child 
molesters.
    And oftentimes they kind of, you know, get off the hook. So 
I raise California and Los Angeles because I believe we have 
some of the most progressive legislation there. But we don't 
have these resources that you're talking about.
    I'll follow up with HHS but I also think we need to 
highlight that because we might have some of these policies in 
theory but I surely don't know where they are and if anywhere I 
think they would be in my state.
    The national action plan--do we have one?
    Ambassador Coppedge. We do have it and we have actually a 
Senior Policy Operating Group which comprises of 
representatives from all of the Federal agencies that work on 
trafficking matters and they meet quarterly throughout the 
year.
    In fact, we're meeting next week and we hear about what 
other individuals are doing, what other agencies are doing. We 
get outside our silos of each agency and we share our practices 
to make sure we're enhancing each other's efforts and not 
competing against efforts.
    Ms. Bass. Could I see that? Could you----
    Ambassador Coppedge. We could get you the--I'm not sure the 
exact title of the document. We will get it for you, yes----
    Ms. Bass. Okay.
    Ambassador Coppedge [continuing]. From the Senior Policy 
Operating Group. And then once a year that group convenes with 
cabinet-level officials and the Secretary of State chairs that 
and that happened in January of this year. So cabinet-level 
officials came together to hear about what other agencies are 
doing and to show a combined front against trafficking in this 
country.
    I will say there was an excellent non-governmental 
organization in Los Angeles that you referenced that had the 
campaign that there's no such thing as a child prostitute.
    Ms. Bass. Exactly.
    Ambassador Coppedge. That was a wonderful organization----
    Ms. Bass. Absolutely.
    Ambassador Coppedge [continuing]. It really changed the way 
we talk about this crime.
    Ms. Bass. That's right.
    Ambassador Coppedge. And I'm very proud of the work they've 
done and the efforts they've made to redefine this so that we 
understand that the people engaging in these acts are 
criminals.
    Ms. Bass. It's really important to call it differently 
which is why it's important to never use the term ``john.''
    Ambassador Coppedge. And in the Federal courts I can tell 
you we do require traffickers to register as sex offenders and 
I'm pretty sure that most states do follow that practice as 
well.
    Ms. Bass. So in the Federal system also one of the other 
areas is victim's testimony where sometimes the girls are 
forced to testify in court and a much more reasonable practice 
would be for the girls to testify on video.
    And I don't know if that's a standard but I think it is one 
that would be helpful.
    Ambassador Coppedge. Again, I will defer to the Department 
of Justice on the legal standards. I will say that in the cases 
I prosecuted, I always worked with victims to obtain their 
consent. They were never forced to testify in court.
    Ms. Bass. Yes, but even obtaining a consent, when they walk 
in and when they see that pimp there, it's very hard even with 
their consent to not be triggered to respond in a way that he 
could literally control from the courtroom through the 
nonverbal communication.
    You know, one----
    Ambassador Coppedge. It is very hard. But in my personal 
experience, it was also empowering for those young women to 
come into court.
    We're talking women over the age of 18, young women, to 
come into court and be able to tell a jury and a judge what 
this individual had done to them and to hear that he was 
convicted of what he did to them.
    So it's also empowering at some level, and there are 
protections for juveniles to be able to testify in different 
manners if they are in danger.
    Ms. Bass. I can certainly understand that, and I was 
specifically talking about girls. But I can understand it could 
even be empowering for them as well.
    So another area that I'm worried about are the 
unaccompanied minors which is referenced here. We have been in 
such a rush to, one, get them placed back when we were at the 
height of that--to get them placed or to deport them.
    And so I'm very concerned. When we deported them back, I 
don't know what we deported them to. I don't know what we did.
    I mean the ones that came with parents, you know, I imagine 
they were deported with their parents but I don't know what we 
do. What do we do?
    Ambassador Coppedge. It's a real problem and certainly----
    Ms. Bass. You take a 12-year-old and drop them off in San 
Salvador?
    Ambassador Coppedge. Certainly, migration crises around the 
world have raised awareness of individuals that trafficking 
victims are preyed upon during any political or economic crisis 
and natural disasters as well.
    Anything that causes individuals to migrate can also cause 
individuals to be susceptible to traffickers, to the false 
promises they make.
    Ms. Bass. But when we deport a child who do we deport a 
child to?
    Ambassador Coppedge. I'm not sure exactly. We'd have to 
check with the Department of Homeland Security to see.
    Ms. Bass. Okay.
    Ambassador Coppedge. I do know that the State Department 
has programs ongoing in Guatemala and Honduras to provide 
services to children to keep them from becoming victims of 
trafficking.
    Ms. Bass. Okay. I know one of the other problems that 
happened in our country too is when we placed them here some of 
them were placed inappropriately and placed with traffickers.
    I want to just wrap up my testimony because I hear they're 
calling votes, I think. Is that--so I would like to make the 
specific request that when the report is done next year that it 
is separated out so that you can see very specifically the 
section that deals with U.S. children in the U.S., not 
international children coming here, and also U.S. trafficking. 
Does that make sense?
    Ambassador Coppedge. But I will say that for--I understand 
your request but I will say that throughout the report for any 
country, whether it's the U.S., France, or Germany, we look at 
trafficking in that country. We look at whether that country 
has a domestic and/or an international component to it. We call 
that a transit source or destiny.
    Ms. Bass. It's just hard to look at our progress that way 
of U.S.--of what the problem is going on with U.S. children.
    Ambassador Coppedge. What the report tries to capture is 
what the landscape of trafficking looks like and in the U.S. 
unfortunately it is both domestic victims and international 
victims.
    We can certainly, and I think the report does highlight 
services and whether those are going to both domestic and 
international victims.
    There has been a great increase in the time that I have 
been working in the anti-trafficking field with services 
provided to domestic victims.
    Ms. Bass. I want us to hold ourselves to a higher standard. 
Thank you.
    Ambassador Coppedge. Thank you.
    Mr. Smith. Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Ambassador.
    I want to begin, you mentioned that the TIP Report relies 
on the Federal efforts with respect to trafficking in the 
United States and you just mentioned an assessment of the 
trafficking landscape.
    With what we know is activity at the state level, does it 
make sense to consider including in the TIP Report the state 
efforts and the success or inadequacies of state efforts as 
well? Seems like a rather big omission.
    Ambassador Coppedge. Well, the report is designed to look 
at countries, to look at the federal, in this case, effort or 
centralized government efforts around the world. It doesn't 
dwell down in any other countries.
    For example, India has multiple states. We don't look at 
what the states in India are doing. And so it's consistently 
treating the U.S. the way we treat other foreign governments 
and evaluate----
    Mr. Cicilline. Yes, I guess I would--just following up on 
what Congresswoman Bass' point that she just made, to the 
extent that we are leaders in this work, we create the report 
to shine the light on the activities of other countries, it 
seems to me that we that ought to be doing everything we can to 
surface all of the trafficking that exists in the United States 
and call that out because I think it gives more credibility to 
the balance of the reports. So just something to----
    Ambassador Coppedge. Well, the report does--and again, the 
U.S. narrative is the longest narrative in here and it does 
focus on both domestic and international.
    Mr. Cicilline. Right. But not--it's happening at the local 
level.
    Do you think that there are sufficient protections in place 
that prohibit the importation of goods and services that have 
been produced in whole or in part by trafficked or slave labor?
    I know there are a number of examples of goods that have 
come into the United States and that there's reason to believe 
that were produced by trafficked labor. Do you think we need 
additional legislative authority to prevent that?
    Ambassador Coppedge. Well, I know that during this past 
year Congress closed the loophole to ban products that are made 
with slave labor and that the Department of Homeland Security, 
through the Customs and Border Protection, now has the 
authority to stop products that they believe are made with 
forced labor.
    So I believe that with that legislative change we should 
wait and see if that appears to be sufficient to allow us to 
keep out goods that are made with forced labor.
    We also at the State Department encourage responsible 
practices on the part of businesses to look at their own supply 
chains. This is not something that governments can do alone. 
It's something we rely on partners and the business community 
needs to step up and police their own supply chain as well.
    To that end, we unveiled this year a Web site partly funded 
by the State Department called resonsiblesourcingtool.org, 
which allows companies who have products that may contain slave 
labor to be able to go onto that Web site and look where the 
issues may be in certain countries and how better to police and 
prevent slave labor from being used in the production of goods.
    Mr. Cicilline. And just one final question because I know 
votes have been called, of the 20.9 million victims worldwide, 
the International Labor Organization estimates that 68 percent 
of these individuals are trapped in labor trafficking. Yet only 
7 percent of the 6,609 convictions reported worldwide last year 
were labor cases. So labor trafficking seems to be really 
operating with near impunity across the globe in large part 
because of the increased resources it takes to recognize, 
investigate, and prosecute these cases.
    How can the TIP Report and the State Department, and your 
office in particular help build this expertise globally and 
ensure that more labor cases are identified and prosecuted? 
What else could we be doing, since that seems to be such a big 
part of this?
    Ambassador Coppedge. And this was similar to what happened 
in the U.S. We focused on sex trafficking and have started to 
increase our focus on labor trafficking and how best to find 
it.
    So what we are doing is training law enforcement both here 
in the U.S. but also through resources from the State 
Department. We're training international law enforcement and we 
are also allowing organizations like the International 
Organization for Migration to train law enforcement on to what 
to look for with respect to indicators of forced labor or 
trafficking.
    And so it's important to train them so they understand what 
to look for but also to call for increasing convictions in this 
area and stringent sentences that will deter labor traffickers 
from engaging in this because it really is a crime of economic 
opportunity, right? Cheaper labor means more money for the 
people making the product.
    And so there needs to be a sufficient consequence and 
throughout the Trafficking in Persons Report we note where 
there are not sufficient sentences and not sufficient labor 
trafficking prosecutions.
    Mr. Cicilline. Thank you so much. I yield back, Mr. 
Chairman.
    Mr. Smith. Ambassador, we do have 11 votes. I'm not sure 
how David Abramowitz--I'm not sure--can you stay? I appreciate 
that.
    Thank you. And I apologize deeply for that. They're saying 
it will take about an hour. Let me just ask a couple of final 
follow-up questions.
    On Cuba where it's clearly stated there is no reporting on 
labor trafficking whatsoever, 84,000 workers from foreign 
medical missions. A significant amount of the government 
revenue is derived from that.
    How is it that that lack of reporting didn't trigger a red 
flag, especially since you acknowledge in your report that some 
of the people said that they were coerced into that overseas 
mission?
    Ambassador Coppedge. So those factors do raise a red flag 
and as you noted are called out in the narrative. But there are 
four minimum standards and the fourth has twelve indicia.
    And so we evaluate all of those standards and look at the 
totality of what's going on in the country. Cuba has made some 
progress, as I indicated with respect to keeping sex tourists 
out of the country. They have increased their efforts to 
address sex trafficking. We continue to press them to engage 
more in labor trafficking and to allow the people involved in 
the medical missions to hold their documents when they are 
working abroad.
    Mr. Smith. Again, just for clarification purposes, when you 
receive data from the People's Republic of China, to what 
extent do we try to verify that it's accurate?
    Ambassador Coppedge. In every case we try to verify that 
information.
    Mr. Smith. And how do we do that?
    Ambassador Coppedge. We have individuals on the ground who 
are gathering information from sources other than the 
government. We rely on human rights organizations. We rely on 
dissidents. We rely on press. We rely on any sources of 
information we can to verify that information.
    I will say, as I alluded to earlier with respect to Cuba, 
that in that case where there's a smaller number of 
convictions, we actually have lawyers at the State Department 
who looked at the facts in those cases and said yes, these are 
sex trafficking cases that we can now count and say this is the 
number of prosecutions they had.
    It becomes much more challenging and problematic in a 
country as large as China to verify every case. We simply can't 
do that. But they do in China break out the prosecutions by the 
type of law they were convicted under and we did distinguish 
those types of prosecutions in the report this year.
    Mr. Smith. But we don't have access, we don't have people 
in the courtroom. I mean, what kind of transparency is there?
    Ambassador Coppedge. We strive for transparency in this 
report and that's why there is----
    Mr. Smith. No, I mean in terms of the Chinese statistics.
    Ambassador Coppedge. It's very hard to get information, as 
you know, sir, from China.
    Mr. Smith. Because if you look at the numbers from 2010, 
there is actually a 55-percent decline in the number of cases 
and 62-percent decline in the number of convictions, again, 
compared to 2010. Not last year but 2010 when they were Tier 3.
    So I have trouble understanding whether or not we have real 
numbers even in 2010 and the numbers have actually declined 
from when they were Tier 3 when it comes to convictions and 
prosecutions.
    Ambassador Coppedge. But it's not just the numbers that the 
tier ranking is based on. It's based on the four minimum 
standards and the 12 indicia.
    So we have to look at all of the factors. And I do know 
that from last year that China did provide increasing 
statistics to us, more information and more transparency than 
they had in 2014, for the 2015 report.
    Mr. Smith. So on China, your recommendation is comported 
with what the Secretary did?
    Ambassador Coppedge. So I--certainly support the book as a 
whole and the Secretary has the final authority. And so this is 
a State Department--whole of Department effort and we were able 
to discuss all of the countries of concern to the Trafficking 
in Persons office with the Secretary.
    Mr. Smith. Okay. Let me just--and for the record, the part 
on the United States, which is a welcome depart, and it's good 
that we're Tier 1, but I think people tend to forget that there 
is an annual Attorney General's report that is 400 pages long. 
This is 418 for the entire world.
    We do look introspectively and we do it with a different 
part of our Government, the Attorney General's office in the 
Justice Department. And I think sometimes that goes under 
recognized.
    We are looking and trying to improve all the time and what 
you have here is just a distillation of what other parts of the 
government are doing on a Federal level. So I think that's 
important to point out.
    Unfortunately, we've got votes. I have another 20 questions 
but I won't get to them. I'll submit them for the record. And 
again, I apologize to Mr. Abramowitz that we have about an 
hour's worth of votes. Then we'll reconvene as soon as we 
return.
    We stand in recess.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting and I 
want to apologize again to Mr. Abramowitz and those who have 
stayed. Thank you for your forbearance.
    I'd like to introduce David Abramowitz who is the managing 
director of Humanity United Action overseeing public policy and 
government relations.
    Previously he served as chief counsel to the House 
Committee on Foreign Affairs where he was responsible for 
advising the committee of such matters as international law, 
justice, global human rights, democracy issues including and 
especially trafficking in persons, and promoting democracy 
assistance.
    He worked doggedly on the Trafficking Victims Protection 
Act of 2000 and especially on the reauthorization of the 
Wilberforce Act in 2008 among other important pieces of 
legislation.
    Prior to joining the committee staff in 1999, David worked 
in the Department of State for 10 years on arms control, the 
Middle East, and legislation relating to foreign relations and 
I'd like to yield the floor to Mr. Abramowitz.

STATEMENT OF MR. DAVID ABRAMOWITZ, MANAGING DIRECTOR, HUMANITY 
                         UNITED ACTION

    Mr. Abramowitz. Thank you, Mr. Chairman, and to Ranking 
Member Bass for convening this important hearing and for 
inviting me to testify.
    I have a written statement and I ask that it be made part 
of the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Abramowitz. It's a pleasure to be here today 
representing Humanity United Action, a nonpartisan non-profit 
organization that along with its affiliated organization, 
Humanity United, is dedicated to bringing new approaches to 
global problems that have long been considered intractable.
    Mr. Chairman, more than 15 years after the Palermo Protocol 
and the Trafficking Victims Protection Act at any given time 
more than 20 million workers and individuals are still 
estimated to be trapped in modern slavery. A strong Trafficking 
in Persons office at the Department of State with effective 
tools such as the Trafficking in Persons Report is a powerful 
catalyst for change.
    But the TIP Report is only effective if the State 
Department ranks countries honestly. Last year, many of us in 
civil society expressed serious concerns that with some of the 
State Department's tier placement decisions, especially the 
upgrading of Malaysia and Uzbekistan, I would say the 2016 
report is a mixed picture with some real disappointments, but 
is certainly better than last year.
    First, the positive. By placing Burma and Uzbekistan in 
Tier 3, we believe that the State Department is starting to 
remedy some of last year's misguided decisions. The treatment 
of the Rohingya in Burma and the Uzbekistani Government 
official policy of forced labor fully justifies these 
decisions, as I note in my written testimony.
    My testimony also describes how the State Department's 
decision to keep Qatar on the Tier 2 Watch List is another 
effective way to use the TIP Report to push for real change 
that will actually impact workers on the ground.
    Unfortunately, this year's report has troubling flaws. Let 
me start with Malaysia. The State Department's upgrade of that 
country to the Tier 2 Watch List in 2015 was completely 
unjustified and remains so today.
    More than a year after Malaysian police unearthed the 
remains of more than 130 human trafficking victims buried in 
mass graves, not a single Malaysian has been held accountable.
    This is particularly of concern, given that the mass graves 
incident occurred fully within this year's reporting period. 
Moreover, recent news reports suggest that top government 
officials have been involved in the human trafficking scheme 
involving the country's immigration system. Similarly, no 
criminal charges have been brought.
    As you mentioned, Mr. Chairman, earlier convictions may 
have gone up slightly from four last year to seven this year, 
but that number is still below the number of convictions in 
2014 when Malaysia was downgraded to Tier 3 and the report 
itself acknowledges that there were fewer trafficking 
investigations and prosecutions last year with its pilot 
program for victims seeming to be sputtering to a halt.
    While the State Department may have believed that an 
upgrade to the Tier 2 Watch List would encourage Malaysia to 
increase its concrete actions, that simply didn't happen.
    Upgrading Thailand to Tier 2 Watch List was also 
unwarranted and points to the perils that the Malaysia upgrade 
created. I know, Mr. Chairman, that you thought that it was 
appropriate to upgrade Thailand but I think that we still have 
significant concerns.
    Though the Thai Government has taken steps to improve some 
of its laws to address international concerns around human 
trafficking and forced labor, those reforms have not resulted 
in any meaningful improvement on the ground.
    Implementation and enforcement of these laws remains a 
major weakness. As I indicated in my testimony, quoting from a 
Humanity United and Freedom Fund report, implementation of the 
new statutes has been inconsistent both in courts and at sea. 
Inspection systems are underfunded, plagued by corruption and 
constrained by inadequate vessel monitoring capabilities.
    More importantly, inspectors have failed to identify 
victims of forced labor as they lack the resources and 
incentives to check crews and interview workers.
    I'd ask, Mr. Chairman, that the full text of that report be 
included in the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Abramowitz. What's more, we've seen very troubling 
developments in the investigation of the discovery of mass 
graves on the Thai side of the border, which is concomitant 
with the Malaysian case.
    The head of this investigation had to flee for his life and 
seek asylum in Australia after receiving threats from Thai 
police and military officials complicit in forced labor in the 
country.
    This suggests that high-level Thai Government officials are 
involved.
    Mr. Chairman, as you mentioned previously, I think we need 
to consider that the upgrade of Malaysia last year led directly 
to the upgrade of Thailand this year.
    It may be that it was simply impossible to upgrade Malaysia 
and keep it on the Tier 2 Watch List this year and at the same 
time not upgrade Thailand.
    Thailand's efforts were plainly insufficient, in our view, 
but they were greater than Malaysia's. Having decided to 
upgrade Malaysia and keep it on Tier 2 Watch List may have made 
it more difficult to keep Thailand on Tier 3 and maybe we can 
discuss this more during questions.
    Unfortunately, the decision to upgrade Thailand and 
maintain Malaysia on the Watch List may deepen the perception 
that the Department applies the TIP Report standards unevenly.
    I believe that the State Department, particularly the U.S. 
Embassies in Bangkok and Kuala Lumpor and the Department's East 
Asia and Pacific bureau must significantly increase their 
efforts to see real implementation of Thailand and Malaysia's 
legal frameworks and press for real impact.
    I want to accentuate this point, Mr. Chairman. The 
Department's lack of focus on actual impact on the ground in 
sensitive countries has reached a point where Congress should 
step in.
    One way Congress can address this is to require that any 
country that receives an upgrade shows concrete actions toward 
the implementation of their laws and demonstrate impact of 
these actions on the ground.
    Developing a program to help survivors that doesn't work or 
establishing labor inspections that do not identify trafficking 
victims is simply not the impact the United States should 
expect.
    Similarly, commitments to take action should not be a basis 
for having a country remain on a Tier 2 Watch List.
    As you pointed out, Mr. Chairman, earlier, we have taken 
vague commitments and the promises to implement laws--new 
laws--in good faith too often and it is the victims of 
trafficking who pay the price for such misplaced trust.
    Now is the time for Congress also to step in to ensure that 
in the future all governments that direct trafficking in 
persons or support forced labor through government policy 
should automatically be placed on Tier 3.
    And before I close, Mr. Chairman, just addressing some of 
the issues that were raised on the United States, I think there 
can be no question that there is significant efforts that the 
U.S. is taking.
    But there are a number of areas, as Congresswoman Bass 
pointed out, where we really need to look carefully. For 
example, on prosecutions, almost all the prosecutions were on 
sex trafficking.
    Obviously, those crimes come up and they're easier to 
investigate. But we have small number of prosecutions and 
convictions on foreign labor trafficking.
    As is mentioned in the report, some of the exchange 
programs are of concern. This is a potential controversial 
issue. But there have been ways in which the summer work 
program and some of the exchange programs have had serious 
problems.
    There are also the issues with the unaccompanied alien 
children and the U.S. need to do more to make sure that the 
children are protected and also that perhaps we take steps to 
ensure that the root causes of some of that is addressed.
    And finally, I think this issue of decriminalization is one 
that we need to continue thinking about. The Justice for 
Victims of Trafficking Act did authorize a diversion program so 
that children would not be put into jails.
    But I think there are ways that we can think about doing 
better and making sure that they are actually not arrested in 
the first place. Obviously, that raises certain challenges. But 
I think we need to look at that carefully.
    Well, thank you, Mr. Chairman, for the invitation to 
testify and for both yours and for Ranking Member Bass' 
critical leadership in this issue and I look forward to working 
with you in the future and to your questions.
    Thank you.
    [The prepared statement of Mr. Abramowitz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Abramowitz, thank you very much for your 
testimony.
    As you I'm sure observed during my questioning of the 
Ambassador-at-Large I used some of your comments, particularly 
the idea of the equivalence of Thailand goes up because 
Malaysia has gone up in terms of tier ranking, and I think that 
was a very valid point.
    I didn't really get an answer to that and some of the other 
questions and I think hopefully on some of the written 
questions we'll get an elaboration on some of the why's of this 
because there are a lot of left unanswered and important 
questions. I mean, whether or not the TPP had any influence 
whatsoever on Malaysia's tier ranking. I think you can't even 
look somebody in the face and have a straight face and say it 
didn't because I think it's obvious it did because it's not 
based on Malaysia's trafficking record.
    So I thank you for those points. You know, the yellow card 
that the European Commission had put on Thailand, where is that 
in terms of its consideration?
    Mr. Abramowitz. I think that's a very important point, Mr. 
Chairman. In late May, early June the European Commission 
extended the yellow card.
    I believe it was for an additional 6 months to determine 
whether Thailand was making progress on both the illegal 
unregulated and unreported fishing aspects which goes to 
sustainability as well as the forced labor issues, even though 
that is technically not part of the Commission's approach.
    My concern is that I think that part of what spurred the 
Commission to take this action with respect to Thailand, which 
is driving some significant change in terms of at least the new 
frameworks, was the yellow card that they put on the 
importation of fish from Thailand and with the upgrade from 
Tier 3 to the Tier 2 Watch List I think the question is how 
will they look at it.
    That is, the Tier 3 rating of Thailand, I think, gave the 
European Commission additional incentives to try to take action 
and now that it's been upgraded to the Tier 2 Watch List what 
will the commission do. I'm very concerned that they will also 
take the pressure off Thailand, which could lead to a very 
unsatisfying response from the Government of Thailand.
    Mr. Smith. Mr. Abramowitz, with regards to Cambodia, 
corruption of or prosecution of corrupt officials is key to 
changing the climate of impunity for human trafficking. We know 
there is a lot of cross border trafficking and what a 
destination point as well as origination Cambodia actually is.
    Your thoughts on what needs to happen for Cambodia to take 
this more seriously and to really crack down on the government 
officials?
    Mr. Abramowitz. Well Mr. Chairman, I think that there are 
those of our partner organizations that work in Cambodia and 
they believe that there has been some significant progress with 
respect to Cambodia and have been supportive of the Cambodia 
being raised to Tier 2.
    That's primarily based, I think, on some of the success 
they have at least in terms of the monitoring they've done on 
some of the child sexual exploitation in Cambodia.
    Nonetheless, I think that there are some significant 
issues. One is the one you just pointed out--corruption. I 
think that the--there continue to be challenges there.
    A second issue is the question of trying to ensure that 
recruitment of Cambodians who work abroad in sort of a semi-
official labor export program is done in a way that it doesn't 
create exploitation.
    A lot of these problems originate in the sending county 
where the recruiters actually require additional fees for 
individuals. So there needs to be additional work there.
    And I think overall Cambodia has to sustain the efforts 
that it's been doing and some of the progress that's been made.
    Mr. Smith. Let me ask you with regards to China, you heard 
my exchange with the Ambassador-at-Large about the view toward 
a written plan that goes unimplemented but the promise of 
implementation is dangled like a low-hanging fruit. They 
continue to retain their category of Watch List.
    Your thoughts on that? Because it seems to me they can 
stretch that for years and when do we finally say we're not 
convinced?
    Mr. Abramowitz. I have to say, Mr. Chairman, that I was a 
bit concerned by the Ambassador's response and also I think the 
overall framing.
    So on one hand, the report--and the Ambassador also 
indicated this--suggests that there are problems with respect 
to the forced labor and these issues are being raised but it's 
not exactly clear what the scale of it, or that's what I heard 
was that it's obviously a problem but the scale, et cetera.
    But then the number-one recommendation they have in the TIP 
Report this year is to end forced labor and government 
facilities outside of the penal sector.
    So it seems to me that the Department is really recognizing 
that this challenge of forced labor, the in-government 
facilities pursuant to the government industries is a real 
serious problem. It's the number-one thing that should be 
fixed.
    So I think that's one of the reasons among others that we 
have this proposal that's in the testimony to say that if there 
is government-sponsored forced labor a country should 
automatically be on Tier 3.
    How is it that you can have a government that would have a 
policy of trying to have forced labor in its facilities, 
industries, et cetera, or in private, forcing individuals to go 
into private sector areas like in Uzbekistan and that they can 
be anything but Tier 3?
    So I think that is one issue that I think we need to look 
at carefully.
    The second is I think that there are difficult 
sensitivities with China, as you pointed out, Mr. Chairman, and 
I think that we need to start thinking about additional tools 
in addition to the TIP Report that is outside this framework to 
try to work on trying to improve their performance. So----
    Mr. Smith. Can you list some examples?
    Mr. Abramowitz. So for example, as was discussed very 
briefly in response to Mr. Cicilline's questions we now have an 
improved tool with respect to prohibiting the importation of 
goods made with forced labor.
    The Tariff Act of 1930 which previously was not available 
to really do anything because of this consumptive demand 
exception, which I believe you and your staff are familiar 
with, now that that's been eliminated you actually have a real 
authority to start enforcing the notion that goods that come 
into the United States should not be made with forced labor and 
our markets should not be open and have access to goods with 
forced labor.
    Now, this has just been used for the first time in 16 
years. Where was it used? Against China. And why? Because it 
was prison labor.
    So I think that's a good signal to send but I think that we 
can expand the use of that authority to other areas where we 
know that forced labor is being used.
    This would be a way of trying to target our efforts so it's 
not trying to undermine the entire relationship or et cetera 
but you can target specific wrongdoing by specific companies 
and I think that can send a strong message to the Government of 
China as well as other governments that they just can't keep on 
going with business as usual.
    So I think that we have to kind of put the TIP Report in 
context and try to figure out where there are other ways that 
we can address some of the wrongdoing if some of the issues 
here become too difficult.
    Mr. Smith. Well, on that import ban it's worth noting Frank 
Wolf and I, when we visited Beijing Prison Number One soon 
after Tiananmen Square, we actually took socks and jelly shoes, 
which, for young girls, was very popular at the time. They were 
coming to this country.
    Since we knew that there were 40 Tiananmen Square and other 
convicts laboring in that place we got an import ban on it. We 
asked the customs commissioner to do it. He did it and it held 
and we think it may have even closed down that particular 
laogai. Of course, they just moved it somewhere else. So it was 
not a Pyrrhic victory but at least a step in the right 
direction.
    Now, you recall that both Bush and Clinton always talked 
about the MOU on gulag-made goods and referencing Smoot-Hawley, 
you know, the 1930 act. But it always had a gaping flaw to it 
in that if we suspected something as far as I know it has not 
changed. We tell them, they being the Chinese Government. They 
inspect it and 60 days later they come back and tell us whether 
or not it was true or not.
    I mean, that's like telling a lawbreaker you go investigate 
your nefarious enterprise and tell us what you find. It was 
absurd at its face then but that was touted for years.
    I remember meeting two customs officials in Beijing on one 
of my trips to Beijing in the early 1990s and I said, ``What do 
you guys do? When do you ever investigate any of this?'' The 
bottom line is--you might recall this--they were like the 
Maytag repairman. They had nothing to do relative to this issue 
and they said, we really don't get any requests.
    So we should really be looking, I think, to get an MOU or 
something like that that has real teeth to it so that we're 
looking for these gulag-made goods and then we take action to 
truly, you know, put an import ban on it. So----
    Mr. Abramowitz. I would say, first of all, Mr. Chairman, 
that as far as I understand it, the situation remains very 
problematic with the MOU with China, that if it's not identical 
to what it was it's very similar.
    We were having a conversation with the customs and border 
protection staff about this and there was some indication that 
there really needs to be an effort with State to go back and 
renegotiate that MOU or try to find some other alternative 
channel for obtaining some of this information. And there was 
some conversations that we've been having with some of our 
Senate friends who are interested in trying to see how the 
Tariff Act can be implemented and I would say that Senator 
Sherrod Brown of Ohio has a very strong interest in this issue 
and could be a good person to talk to you about how to try to 
see what we could do.
    They have been following up on the task force on prison 
labor. This was established I think under an Executive order 
that may have come out about that time and my understanding is 
that the task force that's supposed to look at these issues 
with China in particular has not been very active and that 
there is, I think, an effort to try to spur additional 
examination of these issues. So that might also be a good way 
of trying to see what kind of activity it will generate.
    Mr. Smith. Let's work together on that one. Sherrod Brown 
and I used to co-chair the Congressional-Executive Commission 
on China together so we sat next to each other for years, and I 
will follow up with him. I think it's a great idea.
    Let me just ask you, with regards to China--one last thing 
on China. We know that the North Koreans who are trafficked who 
make it across the border and because we ran out of time I 
didn't get to ask Ambassador Coppedge that--but it is a 
question we'll submit for the record.
    That is a clear violation of the Refugee Convention. The 
UNHCR has yet to really step up and raise the issue in a 
meaningful way with Beijing. But we should and it seems to me 
it ought to be a real issue in our bilateral with China that 
they send people back to sure prison or they're trafficked, not 
100 percent but in a huge percentage of the cases. And your 
thoughts on that?
    Mr. Abramowitz. Well, Mr. Chairman, this of course has been 
an issue that we've been working on for decades now and UNHCR's 
difficult relationship with Beijing has really been an 
inhibitor to really making progress.
    I wonder, Mr. Chairman, whether the existing refugee 
challenges that we're seeing around the world might create a 
new entry point for these issues. That is, you have these very 
large populations in all corners of the world. Human 
trafficking issues had become an important issue for UNHCR. 
Even with respect to the European space where we know that, 
there are challenges when it comes to vulnerable populations.
    There has been some new attention on that and I wonder if 
there's a way to try to raise those issues and say look, you've 
been expressing these concerns in conflict zones and whether 
it's the Islamic State in Iraq and so on and their challenges 
or whether it's been in Europe where there's these large mass 
movements that have shown vulnerable populations where these 
trafficking issues--let's look back at China and see how we can 
try to make sure that everyone is accepting the same norms.
    Mr. Smith. Yeah. No, that's a great idea. We just got back, 
a few of us. Allison Hollabaugh and others on the Helsinki 
Commission from the Organization for Security and Cooperation 
in Europe's Parliamentary Assembly.
    I was the head of delegation. I'm also a Special 
Representative for Trafficking, and at it I offered a 
resolution that did pass but not without people voting against 
it and speaking out against it, particularly the Norweigan 
delegation on International Megan's Law. That law is 8 years in 
the making, passed the House three times. Finally got through 
the Senate, and the argument that was being made by Norway's 
delegation was once somebody serves time, that should be the 
end of it. Everyone forgets why they're in prison and there's 
no follow up and our argument back was this is about child 
protection. The proclivity to recommit these crimes is so very, 
very high--well-documented that we've got to ensure that for 
the sake of children there's at least a noticing requirement 
and hopefully becomes reciprocal so we're noticed when they 
come here, people who are convicted of these crimes against 
children.
    I am wondering what your thoughts are on that because we 
know that we are trying to get European countries, and it did 
pass--the resolution; we'll give you a copy.
    Without objective we'll make it a part of this record as 
well--and we had good buy-in from our friends from Canada, some 
of the others--the U.K. had some of the members of the 
delegation there were very supportive. But, again, and the 
eastern and central European countries very supportive--not the 
Nordic countries and some of the others in that region. It was 
very, very disappointing.
    I think it presents a real challenge to all of us so your 
thoughts on that one.
    Mr. Abramowitz. Mr. Chairman, I have been following that 
debate in the European space the way you and your staff have. 
Obviously, sex tourism is a serious problem, particularly when 
it comes with respect to children.
    I guess my thoughts on it are limited to the notion that we 
do have a situation here in the United States where after many, 
many years of efforts you and the other champions who have been 
working on this issue have got this legislation passed and 
enacted into statute here in the United States and I wonder if 
there's a way of trying to really track that data through the 
Justice Department and the State Department and others so that 
we can build a narrative around how this is having an impact 
and the countries' reactions to it.
    I do think that it may appear different to Nordic countries 
once they're notified of sexual predators who are coming to 
their own country and that building up a case after some 
experience with the law here, even we have Ambassador Coppedge 
indicating that even the Cubans who, you know, their 
reservations about their--what they have been doing. I've been 
interested in following up on these issues and have been 
looking into it.
    So I think that perhaps there's a way that over time there 
can be a stronger and stronger narrative that can be built and 
that the Nordics can see that this is something that could make 
a lot of sense and maybe there will be more cooperation.
    Mr. Smith. That's a good thought. We do require in the law 
reporting. We want to know when the information is actionable, 
what do they do so we have feedback on a constant basis. So 
you're right, we build a narrative. It's more likely they'll be 
persuaded over time.
    Mr. Abramowitz. And I think--Mr. Chairman, I think that 
they're--you know the statistics are one thing but the stories 
are another. I think that my own experience from the outside, 
now that I'm in the advocacy world, having left the U.S. 
Government is that having the number of times and what happened 
and so on is very important, you need the hard information, the 
quantitative. But there's a qualitative end to it that, as you 
know, is so critical in terms of changing people's perspective. 
So trying to marry those up together and trying to devise a 
narrative where we can see that there are some individuals who 
clearly intended to do these kinds of misconduct when they're 
crimes, when they're abroad, and how this helps stop that I 
think could make some different in terms of those perspectives.
    Mr. Smith. One of the most interesting side conversations I 
had in Tbilisi was with a former member of the Royal Mounties 
who when Phuket was hit with the tsunami, and I joined the 
delegation. We went to Sri Lanka, Phuket, and Banda Aceh. And 
Phuket, obviously, has a tremendous amount of sex trafficking 
and of children and it was made very clear that many of the 
bodies that he was a part of identifying, sadly, were--their 
country of origination was in the Nordic area. He was kind of 
shocked by that. And so there could be a more systemic problem 
that needs to be addressed there as well.
    But you're right, we build a narrative and hopefully 
they'll be persuaded. One last question and then I'll make a 
final comment, and anything else you'd like to add that you 
think might be helpful.
    You heard the back and forth on Cuba earlier today. I've 
read again the Cuba narrative which I think is very thorough. 
The point that some--what's the number--84,000 foreign mission 
workers are sent abroad. It's a great money maker for the Cuban 
Government, and yet--and there's been ongoing decades-long 
allegations that there is coercion involved and then our TIP 
Report says they took no action to address forced labor which 
is the co-equal with sex trafficking where there is also huge 
deficiencies, particularly on child sex trafficking.
    It makes me wonder and beyond words how they could be on 
the Watch List. Seems to me that if there is a rapprochement 
going on with Cuba it ought to be done with human rights in 
hand, not in the back somewhere or hidden from view. Friends 
don't let friends commit human rights abuses. If we really area 
getting closer to the Cuban Government which many are doing, I 
think it ought to be done with principles that are not 
compromised for some political reason.
    But your thoughts on the absolute lack of labor trafficking 
and then the issue of sex trafficking.
    Finally, in the recommendations to Cuba, it calls for 
allowing the U.N. Special Rapporteur to visit there. I remember 
the last Special Representative that went to Cuba and I was a 
part of it.
    I didn't play the role. It was Armando Valladares who led 
the U.S. delegation during the Reagan administration. I went 
over with him, spent a week in the U.N. Human Rights Commission 
and he got an investigation into the Cuban prisons.
    Everybody was retaliated against when they left. I don't 
think there was a single person not, and but at least we began 
focusing on Cuba. They wouldn't even let the Rapporteur in to 
look at human trafficking.
    So I think we're premature at best putting that Watch List 
as an issue on there. But I appreciate your thoughts.
    Mr. Abramowitz. So Mr. Chairman, I have to say that Cuba is 
not a country that we focused on in any detail. I have heard 
from those who do follow the Cuban situation a little bit more 
carefully, that based on their analysis of last year's report 
where they were upgraded from Tier 3 to the Tier 2 Watch List 
that there was very little action by the Cuban Government. It 
more fell into this category of promises that they were making 
and commitments they were making to engage more with this issue 
and that was the primary basis, if you just look at the text of 
the report itself.
    And I think that this goes to this issue of we have to 
really think about--and I'm sure you may remember that there 
are times where I have raised concerns about reopening 
standards within the TVPA for tier placement because, of 
course, that's like opening up the Constitution of the United 
States--who knows where it would go.
    But I think that that's why I really think that Congress 
should consider looking at ways to try to focus more on impact, 
particularly on that upgrading from Tier 3 to the Tier 2 Watch 
List. What are the actions that they're taking and what impact 
is it having on the ground, because I don't really see anything 
in the 2015 or more specifically to the subject of this hearing 
in the 2016 narrative that really shows the kind of actions 
that are going to create impact on the ground.
    I, myself, was a bit taken aback when I read the Cuba 
narrative and leading up to this hearing, knowing that this 
might be an issue with respect to really the very clear 
statement that for issues around forced labor are just not 
dealt with at all in Cuba.
    As important as sex trafficking may be and issues around 
the tourist industry that may be the case in Cuba, there really 
needs to be a framework for addressing forced labor issues.
    I will say that as I understand it there are some different 
views about the medical missions and even apparently some of 
the ways in which Cuba brings younger individuals into the 
fields to do some agricultural work and as to whether that is 
really forced labor or not and it appears that there has been 
an inconsistent view that the State Department has taken from 
year to year. I think that was a basis in previous years as to 
why they were on Tier 3.
    I noted Congressman Bass' concerns that perhaps the Tier 3 
status at that time and before the opening that the Obama 
administration has led was really political too.
    But I think there were some serious concerns that have been 
raised in the past regarding those programs as to whether they 
amounted to forced labor.
    So I think that there may be a role in trying to get some 
additional documentation on those programs and get into them a 
little bit more to try to clarify whether they really fit into 
that category of state-sponsored forced labor because if they 
are then, as I said, I think that's a really strong basis for 
saying, you know, that Cuba and any country that is involved in 
a policy of forced labor or exploitation should only be on Tier 
3.
    Mr. Smith. Thank you.
    Let me just conclude by thanking you, David Abramowitz, for 
your lifelong work on human rights, particularly on human 
trafficking.
    Thank you that you have amassed a list of recommendations 
for reauthorization. I look forward to working with you on 
that. My concern is that there will be some of those issues 
that will not be acceptable to the Senate, more likely be 
acceptable to the House.
    Even on the Human Trafficking Prioritization Act, which has 
now sat over there for two Congresses in a row without an 
action, and it deals with this issue of these downgrades and 
the parking lot and which we thought we addressed with the 
Wilberforce Act in 2008, which still remains a problem.
    But I look forward to working with you on that, going 
forward, and I thank you for that leadership. And if I could 
just conclude. Are there any other countries that you think we 
haven't touched on that bear is some scrutiny and focus?
    Obviously, every country in the book, anything on any 
country in Tier 3, obviously, but this hearing was to look at 
where mistakes may have been made, obviously, congratulate 
where good things have been done and basically, the TIP Report 
is a good report, but it has some egregious flaws that, again, 
the Reuters organization discovered last year, which I have 
been saying for some years myself.
    So are there any other countries that you think might need 
a focus?
    Mr. Abramowitz. Well, Mr. Chairman, I think that, you know, 
the question of India has been a perennial question that we've 
discussed in the past. Clearly, the Indian Government is taking 
steps. But should they really be on Tier 2, given the huge 
scale of forced labor that's in the country? I've been 
particularly concerned about reports with respect to India that 
they are not allowing individuals to travel who have been 
conferred the T Visas as a derivative of those who are victims 
in the United States.
    So I think India is a country that we should be looking at. 
I think that, you know, Ghana is a country that, while it was 
kept on the Tier 2 Watch List this year I think continues to 
bear, you know, some examination.
    I haven't had a chance to look through all the ratings but 
I think that as we go forward as we head toward the 2017 
Report, looking at the things that are happening now, these 
issues around what are--what are the countries that have been 
on the Tier 2 Watch List for 4 years or this is the 4th year, 
really do an analysis of those and start early on collecting 
information on those countries to ensure that we're prepared to 
give the right information and really see whether in this sort 
of final year on the Watch List for the 4th year that they're 
going to actually take serious steps that really will have 
impact.
    So I'm going to be doing some analysis with my friends on 
that and would be happy discuss it with you and your staff as 
to what are some of the key countries we should be having a 
special eye on as we go forward.
    Mr. Smith. I appreciate that, and thanks for raising India. 
I met with the Indian Ambassador to the U.S. a few times now 
and he assures me that the retaliation against T Visa holders 
has ended.
    He may not have all the information on that and when Mr. 
Modi was in town I raised two issues with him quickly; one was 
child abduction and the other was trafficking, and the hope is 
that he'll take them very seriously.
    I'll never forget IJM's--we actually showed a video that 
they had of young Indian girls who were in a cave-like cellar 
and they were being, obviously, trafficked for sex 
exploitation--very, very young girls.
    When they came up out of this hole they removed the door to 
it and their eyes were adjusting and it was just a 
heartbreaking scene to see and they were down there to evade 
the police who were on the search or the hunt but were tipped 
off.
    So thank you for raising India and some of these other 
countries.
    Mr. Abramowitz. Well, Mr. Chairman, I just want to say 
thank you for your leadership on these issues and raising these 
issues. It's not always easy to raise an issue like human 
trafficking with the Prime Minister of a major country like 
India. But, you know, we really congratulate you on all your 
continuing serious work and the way the subcommittee and 
Congresswoman Bass has taken this issue very seriously and we 
look forward to working with all of you to try to see what 
further progress we can make on this issue.
    Mr. Smith. Mr. Abramowitz, thank you so very much and the 
hearing is adjourned.
    [Whereupon, at 5:20 p.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
